No.
IN THE SUPREME COURT OF THE UNITED STATES
MARCH 2021 TERM
JORGE LUIS ROSA-HERNANDEZ
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES SUPREME COURT

THOMAS, THOMAS & HAFER, LLP
r

Jpjm F. Yanh k, Esquire
RA Attorney )#55741
PO Box 999
Harrisburg, PA 17108
(717) 441-3952 - Phone
(717) 237-7105-Fax
Attorney for Petitioner, Jorge Luis RosaHernandez

RECEIVED
APR 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

;■

QUESTION PRESENTED

Whether the Third Circuit Court of Appeals erred in affirming the District
Court’s Decision in allowing the Government to use unrelated, uncharged
misconduct in sentencing unfairly enhancing Mr. Rosa-Hernandez’s sentencing
guideline score to 8 levels higher?

1

TABLE OF CONTENTS
Question Presented

i

Table of Authorities

in

Opinions Below

IV

Jurisdiction

.v

Constitutional Provisions Involved

vi

Statement of the Case

1

Reasons for Granting the Writ

6

Conclusion

7

Certificate of membership in Bar

8

Certificate of Service

9

Certificate of Declaration of Mailing Rule 29.2

10

Index to Appendix

11

u

TABLE OF AUTHORITIES
Federal Cases
United States v. Blackmon,
557 F.3d 113 (3d Cir. 2009)

3

Federal Statutes

18 U.S.C.
18U.S.C.
28 U.S.C.
28 U.S.C.

§922 ,
§924 .
§1254
§1651

1
1
v
VI

Other
Federal Sentencing Guidelines § IB 1.3
Federal Sentencing Guidelines §3D1.2

3,5
3

United States Constitution, Fourteenth Amendment,

in

vi

No.
IN THE SUPREME COURT OF THE UNITED STATES
MARCH 2021 TERM
JORGE ROSA-HERNANDEZ
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES SUPREME COURT

JORGE LUIS ROSA-HERNANDEZ respectfully petitions the Court for a
Writ of Certiorari to review the Judgment of the United States Court of Appeals
which affirmed the United States District Court in this case.

OPINIONS BELOW
On October 1, 2020, the United States Court of Appeals for the Third Circuit
issued an Opinion. A copy of the Opinion is attached to this Petition as Appendix
1A. A copy of the Order is attached to this Petition as Appendix 2A. A copy of the
Court’s Order denying a rehearing en banc on October 27, 2020 is also attached as
Appendix 3A.

IV

JURISDICTION
A Writ of Certiorari is sought from an order of the United States Court of
Appeals for the Third Circuit dated October 1, 2020 and subsequently October 27,
2020 denying Petitioner’s En Banc Rehearing.
Jurisdiction is conferred upon this Court by 28 U.S.C. §1254(1), which grants
the United States Supreme Court jurisdiction to review by Writ of Certiorari all
final judgments of the Court of Appeals. Jurisdiction is also conferred upon this
Court by 28 U.S.C. § 1651(a) which grants the United States Supreme Court
jurisdiction to issue all writs necessary or appropriate to aid of its respective
jurisdiction and agreeable to the usages and principles of law.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution. Fourteenth Amendment •

All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and the state
wherein they reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or
property, without due process of law! nor deny any person within its
jurisdiction equal protection of the laws.

vi

STATEMENT OF THE CASE
1.

Petitioner, Jorge Luis Rosa-Hernandez, was indicted on

September 19, 2018 and charged with possession of a firearm by a previously
convicted felon, in violation of 18 U.S.C. §922(g)(l) and §924(a)(2)(Count I).
2.

On December 27, 2018 Jorge Luis Rosa-Hernandez pled guilty to

this indictment without a plea agreement.
3.

The plea arose out of an accidental shooting that occurred on

April 29, 2018. Rosa-Hernandez accidently shot his four-year old daughter
inside a McDonald s restaurant in York, Pennsylvania. The firearm went off
inside Rosa-Hernandez’s pocket, with a bullet passing through is pant leg
and ricocheting off the McDonald’s floor and then striking his daughter in the
leg. Surveillance video captured the entire incident.
4.

Jorge Luis Rosa-Hernandez’s guilty plea had nothing to do with

uncharged misconduct from February 2018.
5.

This February 2018 uncharged misconduct became the

foundation for a number of sentencing enhancements which added eight (8)
points to Petitioner’s offense level of his sentencing guidelines.
6.

Defendant timely objected to the use of uncharged misconduct

that significantly enhanced his sentence.
7.

On February 12, 2018, a Confidential Informant (Cl) informed

law enforcement that he could purchase two firearms from a person named
Christopher Cruz-Ortiz.
1

8.

On February 18, 2018, Cruz-Ortiz called the Cl and stated that

he was at a residence in York with an individual who had two firearms for
sale.
9.

Testimony of this Cl on August 28, 2019 allegedly implicated

Rosa'Hernandez in this firearms transaction.
10.

During the August 28, 2019 hearing, Detective Nazdom testified

that the two firearms related to the February 12 and 13 purchase were
different than the caliber of pistol used on the April 29, 2018 in the
McDonald’s shooting.
11.

According to Detective Nazdom, the pistol involved in the

McDonald’s shooting was purchased by the Defendant’s wife, Blanca Patricia
Rodriguez-Torres.
12.

The two fire arms involved in the February transaction had

nothing to do with her.
13.

The District Court ruled that this February firearms transaction

was “relevant conduct,” which resulted in the inclusion of three sentencing
enhancements increasing Petitioners offense level for sentencing eight (8)
points.
14.

For conduct to be considered “relevant” for sentencing purposes,

it must meet the requirements of USSG §1B1.3. As for which section of
§1B1.3 should apply, it is undisputed that §1B1.3(a)(2) governs.

2

15.

For an act to qualify as relevant conduct under §1B1.3(a)(2),

three conditions must be met: “(i) it must be the type of conduct described in
§1B1.3(a)(1)(A) and (B) Call acts and omissions committed ... by the
defendant’).' (2) grouping would be appropriate under §3D1.2(d); and (3) it
must have been ‘part of the same course of conduct or common scheme or
plan’ under §1B1.3(a)(2).” United States v. Blackmon, 557 F.3d 113, 123 (3d
Cir. 2009).
16.

Clearly, the first condition is not met in the instant case.

§1B1.3(a)(2) states, in full, that conduct for grouping offenses must be
considered l'elevant when “all acts and omissions described in subsections
l(A) and l(B) above were part of the same course of conduct or scheme or
plan as the offense of conviction.” §1B1.3(a)(2) (emphasis added).
17.

Petitioner contends that this implicates language in

§1B1.3(a)(1), which requires that the conduct must have “occurred during the
offense of conviction, in preparation for that offense, or in the course of
attempting to avoid detection or responsibility for the offense,” to be
considered relevant.
18.

Because the instant conviction arose out of, and occurred, weeks

after, the February gun sale, Petitioner maintains, there was no preparation
for the York McDonald’s shooting involved related to the gun sale, nor could
the sale have been an attempt to avoid detection or have occurred during the
commission of the York McDonald’s shooting. Thus, this Court should not
3

consider .the February gun sale as “relevant conduct” under the definition of
(a)(1).
19.

The District Court incorrectly accepted a flawed argument of the

government by concluding that the Defendant’s wife purchased her firearm
that was used in the York shooting on the same day that the February sale
occurred thereby somehow linking the Defendant’s unlawful possession as
being continuous following this sale.
20.

However, there was actually no evidence of record that

Appellant had access to the wife’s firearm continuously from when it was
purchased.
21.

The District Court Judge wrote, “indeed, we are further

persuaded that Defendant ‘had the ability to take actual possession’ of his
wife’s gun whenever he wished based on the fact that he did so when the
York shooting occurred.”
22.

This speculative conclusion is without any evidence in the record

as to how the wife’s gun was actually stored or maintained for over two
months.
23.

The Third Circuit Court of Appeals upheld the District Court’s

ruling regarding the inclusion of the February gun sale as relevant conduct
related to the April McDonald’s shooting. This Court should rule regarding
binding precedent relating to what previous incidents of uncharged

4

misconduct can be utilized as the same course of conduct under §1B1.3(a)(2)
of the Federal Sentencing Guidelines.

5

REASON FOR GRANTING THE WRIT OF CERTIORARI
The reason for granting the Writ of Certiorari in this case is very simple: The
Third Circuit Court for the United States with their affirming of the District Court’s
ruling on what constitutes uncharged misconduct pursuant to the Federal
sentencing guidelines §1B1.3(a)(2). This is clearly a violation of Petitioner’s due
process rights and he requests this case be heard by this Honorable Court.

6

CONCLUSION
For all the reasons stated, the Petitioner, Jorge Luis Rosa-Hernandez,
respectfully requests that his Petition for Writ of Certiorari be granted, and that
this Court accept his case for review.

Respectfully submitted,

jfatiN F. YAklNEK
Counsel for Petitioner,
Jorge Luis Rosa-Hernandez
Date:

/at

-S'*

7

CERTIFICATE OF MEMBERSHIP IN BAR
I, JOHN YANINEK, counsel for Petitioner, hereby certify that I am a
member of the Bar of this Court.

J^iN F. YAl^NEK

8

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing Motion for Leave
to Proceed in Forma Pauperis and Petition for Writ of Certiorari to the United

0 A.
States Supreme Court was mailed this

day of March, 2021, to the following,

via email:
Carlos D. Marchioli a usdoi.aov
Carlos D. Marchioli
US Attorney’s Office - Criminal
PO Box 11754
Harrisburg, PA 17108
Jm F. Yanibek
Counsel for Petitioner,
Jorge Luis Rosa-Hernandez

9

No.
IN THE SUPREME COURT OF THE UNITED STATES
MARCH 2021 TERM

Jorge Luis Rosa-Hernandez
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

DECLARATION PURSUANT TO RULE 29.2
OF THE RULES OF THE SUPREME COURT
I declare under penalty of perjury under the laws of the United States of
America that the Petition for Writ of Certiorari of Jorge Luis Rosa-Hernandez was
mailed to the Clerk’s Office of the United States Supreme Court in Washington
D.C., postage paid and fees paid (USC-426), First Class Mail.

DATE:

fopn F. YanUjek
Counsel for Petitioner,
Jorge Luis Rosa-Hernandez

10

